      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




March 22, 2011

TO:           Yvette Sanchez Fuentes
              Director, Office of Head Start
              Administration for Children and Families


FROM:         /George M. Reeb/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of the United Planning Organization’s Compliance With Health and
              Safety Regulations for Head Start Programs (A-03-09-00369)


Attached, for your information, is an advance copy of our final report on the United Planning
Organization’s (UPO) compliance with health and safety regulations for Head Start programs.
We will issue this report to UPO within 5 business days. The Administration for Children and
Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or
Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at (215) 861-4470 or
through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report number A-03-09-00369.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region III
                                                                          Public Ledger Building, Suite 316
                                                                          150 S. Independence Mall West
                                                                          Philadelphia, PA 19106-3499
March 24, 2011

Report Number: A-03-09-00369

Mr. Dana M. Jones
President and Chief Executive Officer
United Planning Organization
301 Rhode Island Avenue, NW
Washington, DC 20001

Dear Mr. Jones:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the United Planning Organization’s Compliance
With Health and Safety Regulations for Head Start Programs. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Leonard Piccari, Audit Manager, at (215) 861-4493 or through email at
Leonard.Piccari@oig.hhs.gov. Please refer to report number A-03-09-00369 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Dana M. Jones


Direct Reply to HHS Action Official:

Mr. David Lett
Regional Administrator
Administration for Children and Families, Region III
U.S. Department of Health & Human Services
Public Ledger Building, Suite 864
150 South Independence Mall West
Philadelphia, PA 19106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   REVIEW OF THE UNITED
  PLANNING ORGANIZATION’S
COMPLIANCE WITH HEALTH AND
  SAFETY REGULATIONS FOR
   HEAD START PROGRAMS




                      Daniel R. Levinson
                       Inspector General

                         March 2011
                        A-03-09-00369
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provided an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

The United Planning Organization (the Grantee) is a private, nonprofit charitable organization
that serves the residents of the District of Columbia (the District) as the city’s designated
community action agency. The Grantee provides services to 491 Head Start eligible children
through a variety of programs at 10 facilities in the District and also provides funding to 5
delegate agencies. The Grantee received $15,230,321 in Head Start funds from August 1, 2008,
through July 31, 2009.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of August 2009:

   •   The files on 57 of the Grantee’s 127 employees (1) lacked a declaration form, (2) lacked
       evidence of a completed background check, (3) lacked evidence of a completed child
       protection register check, or (4) contained evidence that employees had convictions for
       offenses that should have disqualified the individuals from employment in jobs working
       with children. The files on all 127 employees were not maintained on the facilities’
       premises.

   •   The Grantee’s driver did not meet all Federal driver-specific preemployment and training
       requirements.

   •   The Grantee’s 10 childcare facilities did not meet all Federal Head Start and State
       requirements on protecting children from unsafe materials and equipment.

   •   Six of the Grantee’s childcare facilities did not provide a fully secure environment for the
       children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and


                                                 i
State health and safety requirements. The Grantee’s failure to comply with these requirements
jeopardized the health and safety of children in its care.

RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   all employee files contain evidence of checks of the child protection register and
       evidence of completed background checks, no applicants are hired if they have been
       convicted of an offense listed in District regulations, and each facility maintains
       background check documentation on each employee on the premises;

   •   all drivers have met Federal driver-specific requirements;

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       all necessary repairs are addressed in a timely manner, all unsafe conditions are
       addressed, and all facilities meet State licensing requirements; and

   •   all facilities are secure.

UNITED PLANNING ORGANIZATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, UPO concurred with most of our recommendations and
described its actions to address the deficiencies that we identified. UPO did not concur with five
findings related to preemployment requirements for its driver, a play area used at the Early
Childhood Development Center (ECDC) #3, unlabeled infant formula and a hole in a door at
Matthews Memorial, and chipped and cracked walls at the Sunshine Learning Center.

After reviewing the documentation that UPO provided with its comments, we agree that the two
issues at Matthews Memorial are not Head Start findings, and we removed them from the report.
Although UPO did not concur with the finding about the play area at ECDC #3, it closed the
facility on September 30, 2010, which adequately addressed the recommendation. Nothing in
UPO’s comments caused us to change the remaining findings and recommendations.

UPO’s comments are included as Appendix C. We have excluded the attachments
accompanying UPO’s comments because of their volume.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Federal Head Start Program ...............................................................................1
              Federal and State Regulations for Head Start Grantees .....................................1
              United Planning Organization............................................................................1
              Office of Inspector General Audits ....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATIONS ..........................................................................3

          BACKGROUND CHECKS...........................................................................................3
              Federal and State Requirements.........................................................................3
              Grantee’s Compliance With Federal and State
               Preemployment Requirements ........................................................................4

          HEAD START DRIVER-SPECIFIC REQUIREMENTS ............................................5
               Federal Requirements ........................................................................................5
               Grantee’s Compliance With Driver-Specific Requirements..............................6

          MATERIAL AND EQUIPMENT SAFETY .................................................................6
              Federal and State Requirements.........................................................................6
              Grantee’s Compliance With Material and Equipment Safety
                Requirements ..................................................................................................8

          FACILITY SECURITY ...............................................................................................11
               Federal and State Requirements.......................................................................11
               Grantee’s Compliance With Facility Security Requirements ..........................12

          INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES ................13

          RECOMMENDATIONS .............................................................................................13

          UNITED PLANNING ORGANIZATION COMMENTS ..........................................13

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................14




                                                                    iii
APPENDIXES

    A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
        SAFETY REQUIREMENTS

    B: LACK OF COMPLIANCE WITH FACILITY SECURITY REQUIREMENTS

    C: UNITED PLANNING ORGANIZATION COMMENTS




                               iv
                                        INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

In the District of Columbia (the District), all child development facilities must be licensed and
must comply with the requirements of Title 29, chapter 3, of the District of Columbia Municipal
Regulations (DCMR). Sections 4-1501.03 and .05 of the District’s Child and Youth, Safety and
Health Omnibus Amendment Act of 2004 (the Act) establish requirements for criminal
background checks.

United Planning Organization

The United Planning Organization (the Grantee) is a private, nonprofit charitable organization
that serves the residents of the District as the city’s designated community action agency. The
Grantee provides services to 491 Head Start eligible children through a variety of programs at 10
facilities in the District and also provides funding to 5 delegate agencies. The Grantee received
$15,230,321 in Head Start funds from August 1, 2008, through July 31, 2009.



                                                 1
Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and facilities as of August 2009. To gain an
understanding of the Grantee’s operations, we conducted a limited review of the Grantee’s
internal controls as they related to our audit objective.

We performed our fieldwork from August 10 through October 22, 2009, at the Grantee’s
administrative office and at its 10 childcare facilities in the District. At one facility, the Dance
Institute, we inspected only classrooms operated by the Grantee. 1

Methodology

To accomplish our objective, we:

      •    selected the Grantee based on prior risk analyses and discussions with ACF officials;

      •    reviewed Federal and State laws, regulations, and policies related to Federal grant awards
           and the Head Start program;

      •    reviewed the Grantee’s policies and procedures;

      •    reviewed the Grantee’s files on all 127 Head Start employees; 2

      •    reviewed the Grantee’s licenses and documentation of fire inspections;

      •    visited the Grantee’s 10 childcare facilities; and

      •    discussed our preliminary findings with the Grantee.


1
    The Community Development Institute also operated classrooms at the Dance Institute. We inspected them under
    a separate report (A-03-09-00361).
2
    The 127 employees were partially or fully funded by the Head Start grant award.


                                                           2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of August 2009:

   •   The files on 57 of the Grantee’s 127 employees (1) lacked a declaration form, (2) lacked
       evidence of a completed background check, (3) lacked evidence of a completed child
       protection register check, or (4) contained evidence that employees had convictions for
       offenses that should have disqualified the individuals from employment in jobs working
       with children. The files on all 127 employees were not maintained on the facilities’
       premises.

   •   The Grantee’s driver did not meet all Federal driver-specific preemployment and training
       requirements.

   •   The Grantee’s 10 childcare facilities did not meet all Federal Head Start and State
       requirements on protecting children from unsafe materials and equipment.

   •   Six of the Grantee’s childcare facilities did not provide a fully secure environment for the
       children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements. The Grantee’s failure to comply with these requirements
jeopardized the health and safety of children in its care.

BACKGROUND CHECKS

Federal and State Requirements

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843a(g)), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

Federal Head Start regulations (45 CFR § 1301.31(b)(2)) state that grantees must require each
current and prospective employee to sign a declaration that lists:



                                                 3
       •   all pending and prior criminal arrests and charges related to child sexual abuse and their
           disposition,

       •   convictions related to other forms of child abuse and neglect, and

       •   all convictions for violent crimes.

In the District, child development facilities must comply with the requirements of “Criminal and
Background History Checks” (29 DCMR § 328). Section 328.1 states that each employee must
satisfactorily complete a criminal background check as required by the Act. Section 328.1(a)
also requires each employee to satisfactorily complete a child protection register check before he
or she can be unconditionally employed. Section 4-1501.05(b)(1) of the Act states that “[a]n
applicant, employee, or volunteer required to apply for a criminal background check under
§ 4-1501.03 shall submit to a criminal background check by means of fingerprint and National
Criminal Information Center checks conducted by the Mayor and the FBI.”

Pursuant to 29 DCMR § 328.1(e), “[t]he Facility shall deny employment to any person who has
been convicted of an offense … which constitutes a bar to employment in an agency that
provides direct services to children … as more fully described in subsection 313.1(e) ….” Such
offenses include, among others, assault; assault with a dangerous weapon; burglary; robbery;
kidnapping; and unlawful distribution or possession of, or possession with intent to distribute, a
controlled substance.

Pursuant to 29 DCMR § 327.1(c), each facility must maintain “documentation and results of
criminal and background history checks” on the facility premises in accordance with State
regulations and with all other applicable Federal and State laws and rules.

Grantee’s Compliance With Federal and State Preemployment Requirements

The Grantee’s files on 57 of the 127 employees lacked evidence of compliance with 1 or more
Federal or State preemployment requirements. Specifically:

       •   The files on 28 of the 127 employees did not contain a completed employee declaration
           form.

       •   The files on 27 of the 127 employees did not contain evidence of a background check.

       •   The files on 26 of the 127 employees did not contain evidence of a child protection
           register check.

       •   The background checks on three employees identified convictions for offenses that
           should have disqualified the individuals from employment in jobs working with
           children. 3 The offenses included assault and battery, distribution of cocaine, and

3
    The three employees included a food service aide, a food service driver, and a family services assistant.



                                                             4
           possession with the intent to distribute cocaine, with the most recent conviction occurring
           in 1999.

In addition, the background check documentation for all 127 employees was maintained at the
Grantee’s administrative office, not on the facilities’ premises as required.

By not ensuring that all employees who supervised or had routine unsupervised contact with
children met all Federal and State preemployment requirements, the Grantee potentially
jeopardized the safety of children in its care.

HEAD START DRIVER-SPECIFIC REQUIREMENTS

Federal Requirements

Pursuant to Federal Head Start regulations (45 CFR § 1310.16(b)), a grantee’s applicant review
procedure for drivers must include, at a minimum: (1) a review of general grantee staff
qualifications with additional disclosure by the applicant of all moving traffic violations,
regardless of penalty; 4 (2) a check of the applicant’s driving record through the appropriate State
agency, including a check of the applicant’s record through the National Driver Register, if
available in the State; and (3) a medical examination by a licensed doctor of medicine or
osteopathy, after a conditional offer of employment and before the applicant begins work,
establishing that the individual is physically able to perform job-related functions with any
necessary accommodations. In addition, 45 CFR § 1310.10(c) states that each agency providing
transportation services is responsible for compliance with the applicable requirements of 45 CFR
§ 1310.

Federal Head Start regulations 45 CFR § 1310.17(b) also require that each grantee providing
transportation services ensure that drivers receive a combination of classroom instruction and
behind-the-wheel instruction before transporting children.

OHS’s “Requirements for Head Start Bus Drivers” states that, prior to finalizing the hiring of a
busdriver, an agency must be sure the applicant, among other requirements:

       •   passes a criminal background check,

       •   passes a screening for alcohol and drugs, and

       •   has good hearing and at least 20/40 vision with or without glasses. 5




4
    The general qualifications for a grantee’s staff are specified in 45 CFR § 1304.52(b).
5
 OHS, “Requirements for Head Start Bus Drivers,” Transportation Pathfinder. Available online at
http://eclkc.ohs.acf.hhs.gov/. Accessed on May 19, 2010.


                                                             5
Grantee’s Compliance With Driver-Specific Requirements

Our review of the Grantee’s files for its one driver found that the Grantee did not fully comply
with the Federal preemployment and training requirements for drivers. Specifically, the file
showed no evidence of classroom and behind-the-wheel training, no evidence of alcohol and
drug screening, and no evidence of a hearing and vision test.

MATERIAL AND EQUIPMENT SAFETY

Federal and State Requirements

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities, materials, and equipment. The
regulations (45 CFR § 1304.53(a)) require, among other things, that:

   •   each facility ensure that paint coatings on interior and exterior premises do not contain
       hazardous quantities of lead;

   •   the center-based environment is free of toxins, such as cigarette smoke, lead, and other
       air pollutants, as well as soil and water contaminants;

   •   all medications, including those required for staff and volunteers, be labeled, stored under
       lock and key, refrigerated if necessary, and kept out of the reach of children;

   •   rooms be well lit and provide emergency lighting in the case of power failure;

   •   approved, working fire extinguishers be readily available;

   •   an appropriate number of smoke detectors be installed and tested regularly;

   •   exits be clearly visible and evacuation routes be clearly marked and posted; and

   •   the selection, layout, and maintenance of playground equipment and surfaces minimize
       the possibility of injury to children.

Furthermore, 45 CFR § 1304.22(f) requires that first aid kits be readily available, well supplied,
restocked, and inventoried at regular intervals.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or stringent than the Head Start regulations or if no State or local licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety found in 45 CFR § 1304.53(a).

State regulations (29 DCMR § 304.1) specify that before applying for a license, each facility
must secure a certificate of occupancy for the premises or equivalent proof that the premises


                                                 6
comply with all applicable Federal and District fire, safety, building, and zoning regulations and
codes. Each application must contain certification that the facility is free from lead-based paint
hazards (29 DCMR § 306.3(k)).

State regulations (29 DCMR § 305) also require that each child development facility undergo an
annual fire safety inspection and obtain certification that the premises conform to all applicable
fire safety and related codes. The certification must be issued by the Department of Fire and
Emergency Medical Services or by the Department of Consumer and Regulatory Affairs upon
each annual application for license renewal.

State regulations (29 DCMR § 340.3) specify that during the summer months the temperature
within each room of program space in the facility be maintained between sixty-eight degrees
Fahrenheit (68°F) and eighty-two degrees Fahrenheit (82°).

State regulations (29 DCMR § 361.4) require that each facility provide bathroom facilities for
use by adults separate from those for use by children.

State regulations (29 DCMR § 363) provide guidelines for the general safety and maintenance of
child daycare facilities. These guidelines specify that, among other things:

   •   all playthings, equipment, materials, and furnishings shall not have sharp points or rough
       edges;

   •   unused electrical outlets that are within the reach of children be fitted with appropriate
       childproof protective receptacle closures (protective closures); and

   •   all cleaning and sanitizing supplies, toxic substances, paints, poisons, aerosol containers,
       and other items bearing warning labels be safely stored and kept inaccessible to children.

State regulations (29 DCMR § 367.1) specify that outdoor play spaces on the facility premises be
enclosed with a fence or natural barrier that is at least 48 inches high, with a space no larger than
3.5 inches between its bottom edge and the ground, and designed to discourage climbing.

State regulations (29 DCMR § 367.13) specify that the center director, caregiver, or designated
facility staff at each facility must thoroughly inspect each piece of playground equipment at least
monthly for the following hazards:

   •   visible cracking, bending, warping, rusting, or breaking;

   •   exposed, cracked, or loose cement support footings;

   •   exposed tubing ends that require plugs or cap covers;

   •   accessible sharp edges or points;

   •   protruding bolt ends that require caps or covers;


                                                 7
   •   loose bolts, nuts, or screws that require tightening;

   •   splintered, cracked, or otherwise deteriorating wood; and

   •   exposed hard surfaces, especially under swings and slides.

State regulations (29 DCMR § 369) provide guidelines for emergency preparedness and first
aid. Each facility must obtain and maintain a sufficient quantity of first aid supplies on the
facility premises. The facility must maintain these supplies in a designated location that is
readily available to staff and inaccessible to children.

State regulations (29 DCMR § 374.1) provide guidelines for infant formula. Each facility must
ensure that feeding bottles for an infant or toddler be labeled with the name of the child to whom
they belong and the date of preparation.

State regulations (29 DCMR § 377.2) specify that the facility must ensure that each medication
ordered or prescribed is maintained by the facility in its original container and clearly labeled
with the name of the child for whom it has been ordered or prescribed, the name of the medicine,
the dosage, the method of administration, and the name and telephone number of the child’s
licensed health care practitioner.

Grantee’s Compliance With Material and Equipment Safety Requirements

The Grantee’s childcare facilities did not meet all Federal Head Start and State health and safety
regulations on protecting children. Only 1 of the Grantee’s 10 facilities, the Early Childhood
Development Center (ECDC) #3, provided evidence that the facility was free from lead-based
paint hazards. In addition, we noted the following deficiencies at the 10 facilities, and we
discussed the deficiencies with the facility managers on duty during our visits. In some
instances, the facility managers took immediate steps to address our concerns.

ECDC #1 (visited August 12–14, 2009)

   •   An uncovered bucket of washing powder with a warning label was located next to the
       dryer in a separate room with a closed but unlocked door that was accessible to children.

   •   The facility had no emergency lighting in the event of a power failure.

   •   Evacuation routes were not posted.

   •   Several electrical outlets in five classrooms lacked protective closures.

   •   A classroom had a hole in the wall covered with tape.

   •   Padding covering a concrete pillar in the middle of the play area was torn, exposing
       children to possible harm (Appendix A, Photograph 1).



                                                 8
   •   A child’s inhaler did not have a name on it.

   •   First aid kits contained expired items.

   •   Two classrooms had glue traps (Appendix A, Photograph 2).

ECDC #3 (visited August 20, 2009)

   •   Holes in the fence enclosing the play area had been repaired with chains and locks. The
       chains and locks had sharp edges that exposed children to possible injury (Appendix A,
       Photograph 3).

ECDC #4 (visited August 11 and 12, 2009)

   •   The facility had no emergency lighting in the event of a power failure.

   •   Only one of the four classrooms had a fire extinguisher.

   •   First aid kits contained expired items.

ECDC #5 (visited August 10 and 11, 2009)

   •   The wall near the facility’s front door had multiple holes (Appendix A, Photograph 4).

   •   The temperature in the facility was 85 degrees.

   •   Electrical outlets in all classrooms lacked protective closures.

   •   First aid kits contained expired medications.

ECDC #8 (visited August 19, 2009)

   •   Electrical outlets in two classrooms lacked protective closures.

   •   First aid kits contained expired items.

   •   A classroom had a glue trap.

   •   Ceiling tiles were water stained and appeared to be moldy.

ECDC #9 (visited August 18, 2009)

   •   One classroom had cracked tiles. A report on an inspection that the District’s Child Care
       Licensing Branch conducted in February 2009 also noted these broken tiles.




                                                 9
   •   The wooden fence enclosing the outdoor play area had loose boards with protruding nails
       that exposed children to possible injury (Appendix A, Photograph 5).

   •   Four unpadded metal support posts in the middle of the outdoor play area exposed
       children to possible injury (Appendix A, Photograph 6).

   •   A power strip accessible to children lacked protective closures.

   •   Expired infant formula was in the refrigerator.

   •   The first aid kit contained expired medication.

ECDC #10 (visited August 17, 2009)

   •   Cleaning and sanitizing supplies with warning labels were stored on the floor in an
       unlocked closet that was accessible to children.

   •   The outdoor play area was littered with debris, including large pieces of wood, a condom,
       clothing, and trash bags (Appendix A, Photograph 7).

   •   Separate bathroom facilities for staff and children were not available.

   •   Electrical outlets in three classrooms lacked protective closures.

   •   The children’s bathroom had a glue trap.

   •   Ceiling tiles in two areas of a classroom were water stained and appeared to be moldy
       (Appendix A, Photograph 8).

Dance Institute (visited August 11 and 12, 2009)

   •   A tree stump on the playground exposed children to possible injury (Appendix A,
       Photograph 9).

   •   The first aid kit contained expired items.

   •   The fire inspection approval certificate expired on July 29, 2009.

Matthews Memorial (visited October 19 and 20, 2009)

   •   Cleaning and sanitizing supplies with warning labels were stored in an unlocked closet
       accessible to children (Appendix A, Photograph 10).

   •   The facility had emergency lighting only in the kitchen.




                                                10
   •   A child’s inhaler did not have a name on it, and none of the staff knew whom it belonged
       to.

   •   A child’s allergy medicine that expired in June 2009 did not have a name on it.

   •   Several electrical outlets in a classroom lacked protective closures.

   •   The first aid kit contained expired items.

Sunshine Learning Center (visited October 21 and 22, 2009)

   •   A fire extinguisher on a classroom shelf was accessible to children (Appendix A,
       Photograph 11).

   •   The floor tiles and the walls in five classrooms were chipped and cracked (Appendix A,
       Photograph 12).

   •   Loose floor strips and frayed carpeting in one of the classrooms created tripping hazards.

   •   Raised rubber padding near a slide in the play area created a tripping hazard.

   •   Evacuation routes were not posted in two classrooms.

   •   Electrical outlets in nine classrooms lacked protective closures.

   •   First aid kits contained expired medications.

   •   The fire inspection approval certificate expired on September 23, 2009.

By not ensuring that all facilities were kept free from unsafe materials and equipment, the
Grantee jeopardized the health and safety of children in its care.

FACILITY SECURITY

Federal and State Requirements

Pursuant to Federal Head Start regulations 45 CFR § 1304.53(a)(7), grantees must provide for
the security of all Head Start facilities. The regulations (45 CFR § 1304.53(a)(9)) require that
outdoor play areas at center-based programs be arranged so as to prevent any child from leaving
the premises and entering unsafe and unsupervised areas.

State regulations (29 DCMR § 342) require that an outdoor play area be in an enclosed yard on
the facility premises, in a nearby park or playground, or in a rooftop play space that meets State
safety standards. State regulations (29 DCMR § 367) also specify that each facility with an
outdoor play area on the premises enclose the space with a fence or natural barrier that is at least



                                                 11
48 inches high, with a space no larger than 3.5 inches between its bottom edge and the ground,
and designed to discourage climbing.

Grantee’s Compliance With Facility Security Requirements

Six of the Grantee’s childcare facilities did not meet all Federal Head Start and State facility
security regulations. We noted the following deficiencies at the six facilities, and we discussed
the deficiencies with the facility managers on duty during our visits. In some instances, the
facility managers took immediate steps to address our concerns.

ECDC #1 (visited August 12 – 14, 2009)

   •   The fence enclosing the play area was only 40 inches high in several locations
       (Appendix B, Photograph 1).

   •   The bottom of the chain link fence that enclosed the play area was not anchored
       sufficiently to prevent children from crawling under it and leaving the premises.

ECDC #3 (visited August 20, 2009)

   •   The play area was not completely enclosed by a fence, giving children access to a parking
       lot.

ECDC #5 (visited August 10 and 11, 2009)

   •   Several areas of the fence enclosing the play area had 5 inches of space between the
       bottom edge and the ground.

   •   There was a 6-inch hole at the bottom of the fence and a 4-inch gap between the fence
       and the gate, which allowed children to enter unsafe and unsupervised areas.

Dance Institute (visited August 11 and 12, 2009)

   •   The entrance to the outdoor play area did not have a gate, allowing children to leave the
       premises and unauthorized people to enter the play area (Appendix B, Photograph 2).

   •   The fence enclosing the play area had a very large hole that a child could easily fit
       through and enter unsafe and unsupervised areas (Appendix B, Photograph 3).

Matthews Memorial (visited October 19 and 20, 2009)

   •   The fence enclosing the play area had 11½ inches of space between the bottom edge and
       the ground.




                                                12
Sunshine Learning Center (visited October 21 and 22, 2009)

   •   The fence enclosing the play area had 6 inches of space between the bottom edge and the
       ground.

   •   The fence enclosing the play area was only 43 inches high.

By not ensuring that all facilities were secure, the Grantee jeopardized the safety of children in
its care.

INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety regulations.

RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   all employee files contain evidence of checks of the child protection register and
       evidence of completed background checks, no applicants are hired if they have been
       convicted of an offense listed in District regulations, and each facility maintains
       background check documentation on each employee on the premises;

   •   all drivers have met Federal driver-specific requirements;

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       all necessary repairs are addressed in a timely manner; all unsafe conditions are
       addressed, and all facilities meet State licensing requirements; and

   •   all facilities are secure.

UNITED PLANNING ORGANIZATION COMMENTS

In its comments on our draft report, UPO concurred with most of our recommendations and
described its actions to address the deficiencies that we identified. UPO did not concur with five
findings. It stated that its driver met all Federal requirements and provided previously submitted
documentation that the driver had received a medical examination and held a commercial
license. UPO also stated that children never used the play area enclosed by a hazardous fence at
ECDC #3 and that the infant formula observed at the Matthews Memorial facility was not for
UPO’s Head Start children because UPO did not have an infant program agreement with the
facility. UPO agreed that the tiles on the floor at the Sunshine Learning Center were chipped and
cracked but disagreed that the walls were also damaged.




                                                 13
UPO’s comments are included as Appendix C. We have excluded the attachments
accompanying UPO’s comments because of their volume.

OFFICE OF INSPECTOR GENERAL RESPONSE

UPO’s documentation did not show that its driver received classroom and behind-the-wheel
training, alcohol and drug screening, or a hearing and vision test. The photographs of the
drywall in five classrooms at the Sunshine Learning Center show that the walls were chipped and
cracked, and we have amended our report to include a photograph showing the chipped and
cracked walls (Appendix A, Photograph 12). Nothing in UPO’s comments caused us to change
these findings and recommendations.

During our visit to the ECDC #3 facility, we observed children using the play area enclosed by a
hazardous fence. UPO closed this facility on September 30, 2010, which adequately addressed
the recommendation.

We have removed the findings related to unlabeled formula in the refrigerator and the hole in the
door to the infant’s room at the Matthews Memorial facility because UPO did not have a Head
Start infant program agreement at Matthews Memorial.




                                               14
APPENDIXES
                                                                             Page 1 of 6


APPENDIX A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
                    SAFETY REQUIREMENTS




  Photograph 1 – Taken at ECDC #1 on 8/12/2009 showing torn padding covering a
  concrete pillar in the middle of the play area, exposing children to possible harm.




  Photograph 2 – Taken at ECDC #1 on 8/12/2009 showing a glue trap with a
  dead roach in it.
                                                                         Page 2 of 6




Photograph 3 – Taken at ECDC #3 on 8/20/2009 showing holes in the fence
enclosing the play area that had been repaired with chains and locks. The
chains and locks had sharp edges that exposed children to possible injury.




Photograph 4 – Taken at ECDC #5 on 8/11/2009 showing holes in the wall near
the front door of the facility.
                                                                       Page 3 of 6




Photograph 5 – Taken at ECDC #9 on 8/18/2009 showing the wooden fence
enclosing the play area. Some of the boards were loose and had protruding
nails that exposed children to possible injury.




Photograph 6 – Taken at ECDC #9 on 8/18/2009 showing four metal support posts
in the middle of the outdoor play area. The posts were unpadded and exposed
children to possible injury.
                                                                     Page 4 of 6




Photograph 7 – Taken at ECDC #10 on 8/17/2009 showing the outdoor play area
littered with debris.




Photograph 8 – Taken at ECDC #10 on 8/17/2009 showing water-stained ceiling
tiles that appeared to be moldy.
                                                                       Page 5 of 6




Photograph 9 – Taken at the Dance Institute on 8/11/2009 showing a tree stump on
the playground that exposed children to possible injury.




Photograph 10 – Taken at Matthews Memorial on 10/19/2009 showing a dangerous
chemical with a warning label in an unlocked closet accessible to children.
                                                                     Page 6 of 6




Photograph 11 – Taken at Sunshine Learning Center on 10/21/2009 showing a
fire extinguisher on a shelf accessible to children.




Photograph 12 – Taken at Sunshine Learning Center on 10/21/2009 showing
chipped and cracked drywall in one of the classrooms.
                                                                           Page 1 of 2


       APPENDIX B: LACK OF COMPLIANCE WITH FACILITY
                  SECURITY REQUIREMENTS




Photograph 1 – Taken at ECDC #1 on 8/13/2009 showing that the fence enclosing
the outdoor play area was 40 inches high rather than the required 48 inches.




Photograph 2 – Taken at the Dance Institute on 8/11/2009 showing that the
entrance to the outdoor play area did not have a gate, allowing children to leave
the premises and unauthorized people to enter the play area.
                                                                         Page 2 of 2




Photograph 3 – Taken at the Dance Institute on 8/11/2009 showing a hole in the
fence enclosing the outdoor play area that allowed children to enter unsafe and
unsupervised areas.
                                                                                                          Page 1 of 11

               APPENDIX C: UNITED PLANNING ORGANIZATION COMMENTS 


                 UNITED  PLANNING ORGANIZATION
                      COMMUNITY ACTION AGENCY for WASHINGTON, DC
                  _ _ _ _l1li                                    ........ 

                                                                            


    January 11, 2010

    Mr. Stephen Virbitsky
    Regional Inspector General
    For Audit Services
    Department of Health & Human Services
    Public Ledger Building, Suite 316
    150 S. Independence Mall West
    Philadelphia, PA 191q6-3499

    RE: Report Number: A-03-09-00369

    Dear Mr. Virbitsky:

    Enclosed with attachments are the United Planning Organization's (UPO) comments in response to the
    U.S. Department of Health & Human Services, Office of Inspector General (OIG), draft report entitled
    Review afthe United Planning Organization's Compliance With Health and Safety Regulationsfor Head
    Start Programs. Please note, a number of the visited sites reflected in the draft report closed prior to
    receipt of the draft report and or UPO discontinued contractual relationships with subgrantees prior to
    receipt of the draft report.

    If you have any questions or comments about our comments, please do not hesitate to call me at (202)
    238-4695, or contact Monica Scott Beckham, General Counsel, at (202) 238-4702 or through e-mail at
    mbeckham@upo.org .




                        .ef Executive Officer




301 RHODE ISLAND AVENUE, NW 0 WASHINGTON, DC 20001-1826       202.238.4600 0 FAX 202.588.0570 O'NFO@UPO.ORG • WWW.UPO.ORG
                                                                                      Page 2 of 11




                            United Planning Organization's

                                      Comments On

 U.s. Department of Health & Human Services, Office of Inspector General
 (OIG) Draft Report Entitled Review ofthe United Planning Organization's
  Compliance With Health and Safety Regulations for Head Start Programs



I. 	   Grantee's Compliance With Federal and State Preemployment
       Requirements


       Concurrence:
       • The files on 28 of the 127 employees did not contain a completed employee 

       declaration form. 

       CORRECTIVE ACTION TAKEN August 2010- All 127 employee files, inclusive of 

       the 28 identified, have been completed and signed declaration forms 


       • The files on 27 of the 127 employees did not contain evidence of a background check. 

       CORRECTIVE ACTION TAKEN October 2010- All 127 employee files, inclusive of 

       the 28 identified, contain evidence of a Metropolitan Police Department and Federal and 

       Local background checks. 


       • The files of 26 of the 127 employees did not contain evidence of a child protection 

       register check. 

       CORRECTIVE ACTION TAKEN September 2010- All 127 employee files, inclusive 

       of the 26 identified, contain evidence of a child protection register checks. 


       • The background checks on three employees identified convictions for offenses that 

       should have disqualified the individuals from employment in jobs working with children. 

       CORRECTIVE ACTION TAKEN August 2010- All employees that had disqualifying 

       convictions were counseled and their employment terminated. 


       • Background check documentation for all 127 employees was maintained at the 

       Grantee's administrative office, not on the facilities premises as required. 





                                                                                             1
                                                                                     Page 3 of 11




    CORRECTIVE ACTION TAKEN September 2010- Background check
    documentation for all 127 employees is maintained on each facilities' premises as
    required.

    All of the above Federal and State Preemployment Requirements are a part of the UPO
    preemployment protocols. See attached Appendix A.


II. 	    Grantee's Compliance With Driver-Specific Requirements

         Concurrence and Nonconcurrence:
         • Files for its one driver did not contain evidence of classroom and behind-the-wheel
         Training, no evidence of alcohol and drug screening, and not evidence of a hearing
          and vision test.
          NONCONCURRENCE- Medical Examination Report for Commercial Driver
         Fitness Determination dated 3119109 in Grantee's files. See attached Appendix B.

         Employee resigned in October 2010 prior to receipt of report.


III. 	   Grantee's Compliance With Material and Equipment Safety
         Requirements

         Concurrence (ECDC #1):
         • Uncovered bucket of washing powder with a warning label was located next to the 

         dryer in a separate room with a closed but unlocked door that was accessible to 

         children. 

         CORRECTIVE ACTION TAKEN August, 2010- Bucket of washing powder 

         removed and lock added to door for safe environment. See attached Appendix C, 

         ECDC #1, photograph 1. 


         • Facility has no emergency lighting in the event of a power failure. 

         CORRECTIVE ACTION PLANNED- Request for lighting contract completed and 

         vendor selected. Contract to be forwarded to selected vendor by not later than 

         January 14, 2010. In the interim the facility has emergency lamps in the event of a 

         power failure. See attached Appendix C, ECDC #1, photograph 2. 


         • Evacuation routes were not posted. 



                                                                                             2
                                                                             Page 4 of 11




CORRECTIVE ACTION TAKEN August 2010- Evacuation routes posted. See
attached Appendix C, ECDC #1, photograph 3.

• Several electrical outlets in five classrooms lack protective closures. 

 CORRECTIVE ACTION TAKEN August 2010 - Protective closures were placed 

 on several outlets in each of the five classrooms. See attached Appendix C, ECDC 

#1, photograph 4. 


• A classroom had a hole in the wall covered with the tape. 

CORRECTIVE ACTION TAKEN August 2010- New drywall installed. See 

attached Appendix C, ECDC #1, photograph 5. 


• Padding covering a concrete pillar in the middle of the play area was tom, exposing 

children to possible harm (Appendix A, photograph 1). 

CORRECTIVE ACTION TAKEN January 2011. New padding installed to cover 

concrete pillar in the middle ofthe play area. See attached Appendix C, ECDE #1, 

photograph 6. 


• A child's inhaler did not have name on it. 

CORRECTIVE ACTION TAKEN August 2010- All medications properly stored 

and labeled. See attached Appendix C, ECDE #1, photograph 7. 


• First aid kits contained expired items. 

CORRECTIVE ACTION TAKEN August 2010- Zee Medical restocked all first 

aid kits and expired items discarded. See attached Appendix C ECDC #1, 

photograph 8. 


• Two classrooms had glue traps. (Appendix A, Photograph 2). 

CORRECTIVE ACTION TAKEN August 2010- Glue traps removed and not 

allowed to be placed at facilities. 


NONCONCURRENCE (ECDC# 3):
• Holes in fence enclosing the play area had been repaired with chains and locks. The
chains and locks had sharp edges that exposed children to possible injury (Appendix
A, Photograph 3).

The play area was never used by the facility as a play area for the children.

Site closed on 9-30-2010 prior to receipt of draft report.

                                                                                    3
                                                                              Page 5 of 11




CONCURRENCE (ECDC#4):
e Facility had no emergency lighting in the event of a power failure. 

In the interim the facility had emergency lamps in the event of a power failure. See 

attached Appendix C, ECDC #4, photograph 2. 


e Only one of the four classrooms had a fire extinguisher. 

CORRECTIVE ACTION TAKEN August 2010- One additional fire extinguisher 

added to site. See attached Appendix C, ECDC #4, UPO Form. 


e First aid kits contained expired items. 

CORRECTIVE ACTION TAKEN August 2010- Zee Medical restocked first aid 

kits and expired items discarded. See attached Appendix C, ECDC #4, Zee 

Medical Invoice. 


Site closed 10-29-10 prior to receipt of draft report. 


CONCURRENCE ECDC#5:

eThe wall near the facility's front door had multiple holes.
 Site closed on 10-20-2010 prior to receipt of draft report and relocated to new
facility.

eThe temperature in the facility was 85 degrees. 

CORRECTIVE ACTION TAKEN August 2010- Classroom thermostats set for 76 

degrees daily. 


e Electrical outlets in two classrooms lacked protective closures. 

CORRECTIVE ACTION TAKEN August 2010- Protective closures were placed 

on electrical outlets in two classrooms. 


e First aid kits contained expired items. 

CORRECTIVE ACTION TAKEN August 2010- Zee Medical restocked and 

expired items discarded. See attached ECDC #5, Zee Medical Invoice. 


Site closed on 10-20-2010 prior to receipt of draft report and relocated to new 

facility. 





                                                                                         4
                                                                            Page 6 of 11




CONCURRENCE (ECDC# 8):
e Electrical outlets in two classrooms lacked protective closures.
CORRECTIVE ACTION TAKEN August 2010- Protective closures placed on
electrical outlets in two classrooms.

e First aid kits contained expired items.
CORRECTIVE ACTION TAKEN August 2010- Zee Medical restocked first aid
kits and expired items discarded. See attached Appendix C, ECDC #8, Zee
Medical Invoice.

eA classroom had a glue trap.
CORRECTIVE ACTION TAKEN August 2010-Glue trap removed and not
allowed to be placed at facilities.

eCeiling tiles were water stained and appeared to be moldy. 

CORRECTIVE ACTION TAKEN August 2010- Water stained ceiling tiles 

removed and replaced. See attached Appendix C, ECDC #8, photograph 9. 



CONCURRENCE ECDC# 9:

eOne classroom had cracked tiles. A report on an inspection that the District's Child
Care Licensing Branch conducted in February 2009 also noted these broken tiles.
Site closed on 3-26-10 prior to receipt of draft report
e Wooden fence enclosing the outdoor play area had loose boards with protruding
nails that exposed children to possible injury (Appendix A, Photograph 5).
Site closed on 3-26-10 prior to receipt of draft report
eFour unpadded metal support posts in the middle ofthe outdoor play area exposed
children to possible injury (Appendix A, Photograph 6).
Site closed on 3-26-10 prior to receipt of draft report
e A power strip accessible to children lacked protective closures.
Site closed on 3-26-10 prior to receipt of draft report
e Expired infant formula was in the refrigerator.
Site closed on 3-26-10 prior to receipt of draft report
eThe first aid kit contained expired medication.
CORRECTIVE ACTION TAKEN September 2009- Zee Medical restocked and
expired items discarded. See attached Appendix C, Zee Medical Invoice.



                                                                                    5
                                                                              Page 7 of 11




CONCURRENCE ECDC# 10

eCleaning and sanitizing supplies with warning labels were stored on the floor in an 

unlocked closet that was accessible to children. 

CORRECTIVE ACTION TAKEN July 2010- Cleaning and sanitizing supplies 

with warning labels stored in locked cabinet that is not accessible to children. 


eThe outdoor play area was littered with debris, including large pieces of wood, a 

condom, clothing, and trash bags (Appendix A, Photograph 7). 

Play area owned by the District Government. Site closed on 9-30-10 prior to receipt 

of draft report 


eSeparate bathroom facilities for staff and children were not available. 

CORRECTIVE ACTION TAKEN July 2010 lower restroom designated for staff 

Use. 


e Electrical outlets in three classrooms lacked protective closures. 

CORRECTIVE ACTION TAKEN July 2010- Protective closures provided for 

electrical outlets in three classrooms. 


eThe children's bathroom had a glue trap. 

CORRECTIVE ACTION TAKEN September 2010- All glue traps in children's 

bathroom discarded and not allowed to be placed in children's bathroom. 


eCeiling tiles in two areas of a classroom were water stained and appeared to be 

moldy (Appendix A, Photograph 8). 

Site closed on 9-30-10 prior to receipt of draft report. 



NONCONCURRENCE & CONCURRENCE (Dance Institute):

e A tree stump on the playground exposed children to possible injury (Appendix A, 

Photograph 9). 

CORRECTIVE ACTION TAKEN July 2010. Dance Institute no longer uses 

photographed Public Playground. Playground installed at Dance Institute facility. 


e The first aid kit contained expired items. 

CORRECTIVE ACTION TAKEN August 2010- Zee Medical restocked first aid 

kit and expired items discarded. See attached Appendix C, Dance Institute, Zee 

Medical Invoice. 

                                                                                     6
                                                                               Page 8 of 11




eThe fire inspection approval certificate expired July 29,2009. 

CORRECTIVE ACTION TAKEN July 2010- See attached Appendix C, Dance 

Institute, Fire Inspection Report. 



CONCURRENCE & NONCONCURRENCE (Matthews):

eCleaning and sanitizing supplies with warning labels were stored on the floor in an 

unlocked closet that was accessible to children. 

CORRECTIVE ACTION PLAN July 2010 - Cleaning and sanitizing supplies with 

warning labels stored in locked cabinet not accessible to children. See attached 

Appendix C, Matthews, UPO Facility Short Checklist and Monitoring Report 


eThe facility had emergency lighting only in the kitchen. 

CORRECTIVE ACTION PLAN July 2010 to identify locations for needed 

emergency lighting and request lighting to be placed in identified locations. See 

attached Appendix C, Matthews, UPO Facility Short Checklist and Monitoring 

Report. 


eA child's inhaler did not have a name on it, and none of the staff knew whom it 

belonged to. 

CORRECTIVE ACTION TAKEN July 2010 - Children's medication stored and 

properly labeled in locked box accessible to office. 


eA child's allergy medicine that expired in June 2009 did not have a name on it. 

CORRECTIVE ACTION TAKEN July 2010- Expired medication was discarded. 


eThree bottles of infant formula in the refrigerator were not labeled with children's 

names or preparation dates. 

NONCONCURRENCE-UPO did not have Head Start infant agreement with 

subgrantee and formula not used for Head Start children. 


eSeveral electrical outlets in a classroom laced protective closures. 

CORRECTIVE ACTION TAKEN July 2010 - Protective closures were placed on 

the several electrical outlets in the classroom. See attached Appendix C, Matthews, 

UPO Facility Short Checklist and Monitoring Report. 


eThere was a hole in the door to the infants' room. 

NONCONCURRENCE -UPO did not have Head Start infant agreement with 

                                                                                          7
                                                                               Page 9 of 11



subgrantee.

eThe first aid kit contained expired items. 

CORRECTIVE ACTION TAKEN April 2010 - Zee Medical restocked first aid kit 

and expired items discarded. See attached Appendix C, Matthews, Zee Medical 

Invoice. 


Slot purchase agreement expired May 2010 prior to receipt of draft report.


CONCURRENCE (Sunshine Learning Center):

eA fire extinguisher on a classroom shelf was accessible to children (Appendix A, 

Photo 11). 

CORRECTIVE ACTION TAKEN July 2010- Fire extinguisher removed from 

children's access and mounted on wall. See attached Appendix C, Sunshine, 

photograph 10 and Monitoring Report. 


eThe tiles on the walls and floors in five classrooms were chipped and cracked. 

CORRECTIVE ACTION TAKEN December 2010- New tile floors installed and 

See attached Appendix C, Sunshine, photograph 11. 

NONCONCURRENCE regarding tiles on walls. The walls are dry wall and no 

chips or cracks found. 


e Loose floor strips and frayed carpeting in one of the classrooms created tripping 

hazards. 

CORRECTIVE ACTION TAKEN July 2010- See attached Appendix C, 

Sunshine, photograph 12 and UPO Facility Short Checklist. 


eRaised rubber padding near a slide in the play area created a tripping hazard. 

CORRECTIVE ACTION TAKEN July 2010- See attached Appendix C, 

Sunshine, photograph 13. 


e Evacuation routes were not posted in two classrooms. 

CORRECTIVE ACTION TAKEN July 2010- Evacuation routes posted in the two 

classrooms. See attached Appendix C, Sunshine, photograph 14 and UPO 

Facility Short Checklist. 


e Electrical outlets in nine classrooms lacked protective closures.


                                                                                        8
                                                                                  Page 10 of 11




      CORRECTIVE ACTION TAKEN July 2010- Protective closures for were placed
      on electrical outlets in nine classrooms. See attached Appendix C, Sunshine,
      photograph 15 and UPO Facility Short Checklist.

      e First aid kits contained expired medications.
      CORRECTIVE ACTION TAKEN August 2010- Zee Medical restocked first aid
      kits and expired items discarded. See attached Appendix C, Sunshine, Zee Medical
      Invoice.

      eThe fire inspection approval certificate expired on September 23,2009.
      CORRECTIVE ACTION TAKEN April 2010 - See attached Appendix C,
      Sunshine, DC Fire Inspection Report.



IV.   Grantee's Compliance With Facility Security Requirements
      CONCURRENCE ECDC# 1:

      eThe fen~e enclosing the play was only 40 inches high in several locations 

      (Appendix B, Photograph 1). 


      eThe bottom ofthe chain link fence that enclosed the play area was not anchored 

      sufficiently to prevent children from crawling under it and leaving the premises. 


      CORRECTIVE ACTION PLAN- Site Director shall be informed to no longer use 

      the identified play area that is owned and operated by the District of Columbia 

      Department of Parks and Recreation. 



      CONCURRENCE ECDC#3: 


      eThe play area was not completely enclosed by a fence, giving children access to a 

      parking lot. 

      Site closed on 9-30-2010 prior to receipt of draft report. 




      CONCURRENCE ECDC#5: 


      eSeveral areas of the fence enclosing the play area had 5 inches of space between the 

      bottom edge and the ground. 

      Site closed on 10-20-2010 prior to receipt of draft report and relocated to new 


                                                                                            9
                                                                            Page 11 of 11




facility.

eThere was a 6 inch hole at the bottom ofthe fence and a 4-inch gap between the
fence and the gate, which allowed children to enter unsafe and unsupervised areas.
Site closed on 10-20-2010 prior to receipt of draft report and relocated to new
facility.


CONCURRENCE DANCE INSTITUTE:

eThe entrance to the outdoor play area did not have a gate, allowing children to leave
the premises and unauthorized people to enter the play are (Appendix B, Photograph
2).
CORRECTIVE ACTION TAKEN- Dance Institute does not use photographed
Public Playground. Playground installed at Dance Institute facility fall 2010 prior to
receipt of draft report.
eThe fence enclosing the play area had a very large hole that a child could easily fit
through and enter unsafe and unsupervised areas (Appendix B, Photograph 3).
CORRECTIVE ACTION TAKEN- Dance Institute does not use photographed
Public Playground. Playground installed at Dance Institute facility fall 2010 prior to
receipt of draft report.

CONCURRENCE MATTHEW MEMORIAL:

eThe fence enclosing the play area had an 11 Yz inches of space between the bottom 

edge and ground. 

CORRECTIVE ACTION TAKEN SUMMER 2010- Playground demolished prior 

to receipt of draft report. 


CONCURRENCE SUNSHINE LEARNING CENTER

eThe fence enclosing the play area had 6 inches of space between the bottom edge 

and the ground. 

CORRECTIVE ACTION PLAN- Plastic/wooden barriers were added to retrofit the 

6 inch space at the bottom edge and the ground. See attached Appendix C, 

Sunshine, photograph 16. 

eThe fence enclosing the play area was only 43 inches high. 

CORRECTIVE ACTION PLAN- Request to be made by third week of January to 

Sunshine Learning Center to correct fence height. 





                                                                                     10
